<html>
<title> - YELLOWSTONE RIVER OIL SPILL OVERSIGHT</title>
<body><pre>[Senate Hearing 112-955]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-955

                 YELLOWSTONE RIVER OIL SPILL OVERSIGHT

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 20, 2011

                               __________

  Printed for the use of the Committee on Environment and Public Works


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available via the World Wide Web: http://www.fdsys.gov
                              __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

23-821 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001















               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

           Subcommittee on Transportation and Infrastructure

                     MAX BAUCUS, Montana, Chairman
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTRENBERG, New Jersey     JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     MIKE JOHANNS, Nebraska
TOM UDALL, New Mexico                JOHN BOOZMAN, Arkansas
BARBARA BOXER, California, (ex       JAMES M. INHOFE, Oklahoma, (ex 
    officio)                             officio)
























                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 20, 2011
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     1
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    52
Inhofe, Hon. James, M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................    60

                               WITNESSES

Perciasepe, Hon. Robert, Deputy Administrator, U.S. Environmental 
  Protection Agency..............................................     2
Quarterman, Hon. Cynthia, Administrator, Pipeline and Hazardous 
  Materials Safety Administration, U.S. Department of 
  Transportation.................................................    11
Kennedy, Hon. Bill, Commissioner, District Three, Yellowstone 
  County, Montana................................................    27
Pruessing, Gary W., President, Exxonmobil Pipeline Company, 
  Exxonmobil Corporation.........................................    35
Mcburney, Scott, Montana Landowner...............................    40

 
                 YELLOWSTONE RIVER OIL SPILL OVERSIGHT

                              ----------                              


                        WEDNESDAY, JUNE 30, 2011

                               U.S. Senate,
         Committee on Environment and Public Works,
         Subcommittee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Max 
Baucus(chairman of the subcommittee) presiding.
    Present: Senators Baucus, Lautenberg and Vitter.

                 STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. I call this hearing today to shine a bright 
light on a dark event, the oil spill in the Yellowstone River 
on July 1st. Montanans have suffered two disasters on the 
Yellowstone this year: devastating floods and spilled oil. The 
evidence shows that they are related, but there is no excuse 
for what happened on July 1st.
    As Montanans, we love our State because of its wonderful 
rivers. The Yellowstone is God's country and it has trout to 
prove it. I have seen people come visit Montana, be transformed 
the first time they cast a fly in the Yellowstone. We raise 
food and we raise families on this river. And I might add it is 
the longest unobstructed river in the United States. It starts 
down at the Yellowstone Park and then moves, flows north of the 
Paradise Valley and makes a right-hand turn and then flows 
toward Billings and then joins the Missouri just the other side 
of the North Dakota border, the longest unobstructed river in 
the United States and Montanans are very proud of that.
    But Montana also has good-paying jobs and we can drive to 
our favorite fishing holes. We can do that because of the oil 
in our pipelines, oil to refineries and then the gas pumps. 
These are just the facts.
    Water is our most sacred resource and oil is our most basic 
fuel. Montana is rich in pristine waters and rich in energy and 
we cannot let them mix.
    Today, we will examine what happened before and what 
happened after the spill; what went right and what could have 
been improved. Our first priority is getting this spill cleaned 
up and getting it cleaned up now. So I want to make sure that 
the Yellowstone is being restored immediately for everyone that 
depends on it. Just as important is that Montana landowners be 
made whole. This means a fast and effective cleanse process and 
it also means a long-term commitment that Exxon will be there 
years down the road if the value of the land remains damaged by 
this spill.
    And that commitment must include a plan to compensate our 
farmers and ranchers for potential long-term impacts on the 
crops they depend on to make a living.
    And finally, we will look for potential lessons to be 
learned. We will ask tough questions about what happened, 
whether it could have been prevented. Were the effects of 
flooding in the Yellowstone properly considered when the 
Silvertip pipeline was designed? Is the pipeline operated with 
the specific characteristics of the Yellowstone in mind? This 
was not the first flood in Montana. It will not be the last.
    We also know that there are many other rivers crossed by 
pipelines in Montana. So I want to know what can be done to 
make sure this never happens again.
    It is also very important to me that Montanans have a voice 
in this process. I am proud we have two fellow Montanans here 
today. They are here today to share their stories and their 
insights. And to folks that are watching back home, we want to 
hear from you as well.
    Senator Baucus. The official congressional Record will stay 
open for 2 weeks. Please give my office a call or send us an 
email to make sure your written comments are included in the 
record.
    I look forward to the hearing. To all our witnesses, thank 
you very much for coming. I understand that Commissioner Bill 
Kennedy just got in on the red-eye from Montana. Montana is not 
next door. It is a little ways away. So thank you very much for 
coming. And so thank you very much.
    All right. If any of the Members want to make statements?
    I will begin with Mr. Perciasepe. Bob Perciasepe is someone 
I have known for years. I have a high regard for him, as he 
worked for the EPA. Bob Perciasepe is the Deputy Administrator 
of the U.S. Environmental Protection Agency.
    We also have with us Hon. Cynthia Quarterman, Administrator 
of the Pipeline Hazardous Materials Safety Administration with 
the Department of Transportation on our first panel.
    Our second panel includes Scott McBurney, a landowner in 
Montana. Thank you, Scott, for coming. And also Gary Pruessing, 
who is President of ExxonMobil Pipeline Company with, of 
course, Exxon.
    So Mr. Perciasepe, why don't you begin first. And you are 
on the record, and just summarize for 5 minutes.

STATEMENT OF HON. ROBERT PERCIASEPE, DEPUTY ADMINISTRATOR, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Perciasepe. OK. Mr. Chairman, thank you for inviting us 
today and we are happy to be here to discuss the role and 
activities of USEPA regarding the ExxonMobil pipeline break 
into the Yellowstone River and the resulting oil spill.
    EPA, in coordination with our Federal, State, tribal and 
local partners is committed to protecting the Yellowstone River 
and the communities around it from the adverse environmental 
effects of the Silvertip pipeline oil spill.
    As I think we all know now, this occurred on July 1st late 
at night. The break occurred in a 12-inch pipeline owned by 
ExxonMobil that resulted in a spill of crude oil into the 
Yellowstone River. The current estimate of the amount of oil 
released remains at 1,000 barrels based on information provided 
by ExxonMobil. But both PHMSA and the State of Montana are 
investigating all elements of this incident, including the 
amount of oil released.
    EPA continues to hold ExxonMobil accountable for assessment 
and cleanup. The agency has issued an official administrative 
order to ExxonMobil directing the company to take a number of 
cleanup and removal and near-term restoration efforts. We will 
continually and carefully and thoroughly continue to review 
their work plans, data and field activities.
    EPA shares the responsibility of responding to oil spills 
in the United States with the U.S. Coast Guard, as well as 
responsibility for prevention and preparedness with several 
other Federal agencies. As the principal Federal response 
agency for oil spills in the inland zone of the United States, 
EPA is the Federal on-scene coordinator for the Yellowstone 
River spill.
    The Pipeline and Hazardous Materials Safety Administration 
is responsible for regulation and oversight of pipeline safety 
and my counterpart, whom you have already introduced, will 
discuss that agency's role with respect to the pipeline and oil 
spill prevention response.
    I would also like to point out that the State, and 
especially Governor Schweitzer, have been integrally involved 
in the coordination and the coordinated response to this spill 
and have been an important partner in this response. The 
Governor's leadership in the deployment of several agencies and 
the State's consultation with experts from other States are 
representative of the extraordinary effort toward keeping the 
people of Montana affected by this spill informed about what is 
happening on the ground.
    As part of our mission to protect public health and the 
environment and out of an abundance of caution, we have been 
collecting air, surface water and drinking water samples, and 
as the floodwaters have started to recede, soil and sediment 
samples. EPA has been actively engaged in overseeing the 
shoreline cleanup assessment techniques, or SCAT, activities, 
and the SCAT is a process of inspecting impacted areas for the 
degree of oiling and the types of soil and vegetation that 
needs to be cleaned up in a particular area.
    The teams are now finding quantities of oil as the river 
levels go down under debris piles, and those of you who know 
unobstructed streams, as you have already defined, know that 
debris piles up, mostly wood and logs and vegetative material, 
will pile up in a stream during a flood and under those piles 
we are starting to see evidence of oil that has accumulated 
there because the water slows down underneath those piles.
    So the SCAT teams, including the State's, are currently 
evaluating a range of options for remediating that oil, without 
causing greater damage to the ecosystem, which is always a 
balancing act that we have to play here.
    To date, water sampling conducted by EPA indicates that 
there are no petroleum hydrocarbons above the drinking water 
standards in that region. In addition, our air monitoring 
continues to show no detection of contaminants associated with 
the spill in the ambient air along the Yellowstone River at 
levels that would pose a threat to human health.
    These monitoring efforts, along with sampling and 
monitoring taken or planned by our partners, will continue as 
we remain focused on taking all the necessary steps to protect 
public health. As additional data are collected, we will have a 
more comprehensive picture of the potential impacts.
    In addition to our collection of real-time air samples, EPA 
also followed strict scientific and quality assurance protocols 
for the soil or sediment samples that are collected and sent to 
certified local laboratories for analysis and validation. As 
soon as EPA has updated data, we post the information on our 
website. In addition, we have been providing daily updates to 
the public and have held community meetings to keep the public 
informed.
    I want to take this opportunity to quickly report on the 
assets being deployed for this incident. As of July 18th, there 
are 755 personnel onsite and 610 currently in the field engaged 
in cleanup or sampling activities. Cleanup crews have used 
41,000 linear feet of materials such as absorbent booms and 
9,000 square feet of materials such as absorbent pads. Crews 
have removed 942 barrels of oily liquid and 505 cubic yards of 
oily solids. The liquid waste is being processed through a 
permitted refinery wastewater treatment plant and the solid 
waste is being shipped to a facility to reclaim those 
materials. Evacuation also last weekend of the pipeline removed 
370 barrels of oily liquid and about 80 barrels of oil.
    Next steps, and I am just about done, in coordination with 
our Federal and State and local partners, EPA is committed to 
protecting the community from any adverse environmental effects 
from the oil. In the coming weeks, we will be transitioning 
from emergency response to the SCAT-driven process, toward a 
State-determined cleanup standard. EPA will continue 
monitoring, identifying and responding to potential public 
health and environmental concerns.
    At this time and after my partner's testimony, I will 
answer any of your questions.
    [The prepared statement of Mr. Perciasepe follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
 
    
    Senator Baucus. Thank you very much, Mr. Perciasepe.
    I have one question. You said SCAT-driven. That raises 
certain questions. What does SCAT-driven mean?
    Mr. Perciasepe. Those of us who hike may have a different 
view, but SCAT is a shoreline assessment process. I think the 
exact words, I never can precisely remember, but it is a 
process where you go along the shoreline and actually evaluate 
what needs to be done and then that gets reported to the 
cleanup crews, both contractors, but mostly for the responsible 
party. And that directs the cleanup activities. And that 
process is ongoing until we are done.
    Senator Baucus. OK. I was just curious. Thank you.
    The Honorable Cynthia Quarterman?

 STATEMENT OF HON. CYNTHIA QUARTERMAN, ADMINISTRATOR, PIPELINE 
AND HAZARDOUS MATERIALS SAFETY ADMINISTRATION, U.S. DEPARTMENT 
                       OF TRANSPORTATION

    Ms. Quarterman. Good morning, Chairman Baucus. Thank you 
for the opportunity to discuss the Pipeline and Hazardous 
Materials Safety Administration's investigation of and response 
to the July 1st ExxonMobil Pipeline Company oil spill in 
Laurel, Montana.
    Safety is the No. 1 priority of Secretary LaHood, myself 
and the employees of PHMSA. We are all committed to reducing 
safety risks to the public and the environment. More than 2.5 
million miles of pipeline delivery energy to homes and 
businesses across America and our job at PHMSA is to ensure 
that every mile is safe.
    Over the past 20 years, the traditional measures of risk 
exposure such as population growth and development have been 
rising. However, the number of significant incidents involving 
onshore hazardous liquid pipelines has declined 28 percent, 
with a corresponding decrease of 57 percent of gross barrels 
spilled.
    Despite those overall improvements, I am deeply troubled by 
this recent oil spill. Secretary LaHood, myself and the 
employees of PHMSA are always mindful of the substantial 
effects these incidents can have on the community where a spill 
occurs. I assure you that PHMSA is vigorously investigating 
this incident and will continue to do so.
    We continue to assist various State and Federal agencies, 
such as our partner EPA, in assessing the failure's devastating 
effects to the Yellowstone River and its surrounding 
communities and helping with cleanup activities.
    Due to the high river flows, the ruptured pipe is currently 
inaccessible for further examination. However, I can assure 
this Subcommittee that once the pipe becomes accessible PHMSA 
will complete its investigation as soon as possible. We have 
contacted all operators with pipeline crossings in the 
Yellowstone River to verify the condition and operational 
status of their crossings. We advised them to take appropriate 
preventive measures, to patrol their pipeline crossings, 
monitor them more frequently, and coordinate their efforts with 
other nearby operators.
    Before this incident occurred, PHMSA was actively 
monitoring the Silvertip pipeline and the recent flooding 
conditions. Due to the onset of heavy flooding starting in May 
2011, PHMSA inspectors began monitoring the flow-rate in the 
Yellowstone River on a daily basis. In response to the 
potential risks prior to the spill, we required ExxonMobil to 
perform a depth-of-cover survey that confirmed the pipeline was 
buried at least five feet below the riverbank. ExxonMobil later 
informed us that the south bank was covered on average by 12 
feet of cover.
    Mr. Chairman, I assure you that PHMSA will remain vigilant 
in ensuring the safety, reliability and the integrity of all 
pipelines under its jurisdiction. We will also ensure that the 
Silvertip pipeline is free of safety and environmental risks 
before ExxonMobil is granted permission to re-start the line.
    PHMSA will investigate this incident fully to ensure that 
the pipeline is operated safely, that the public is protected, 
and that any violations of the Federal pipeline safety 
regulations are swiftly addressed.
    Thank you, and I am happy to respond to any questions you 
might have.
    [The prepared statement of Ms. Quarterman follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
    Senator Baucus. OK. I would like to basically start with 
you, Mr. Perciasepe, and just some basic questions I have. 
Obviously, the degree to which the cleanup has been 
accomplished, and before I get to that, the extent of the 
damages. If you could just tell us just what the damages were 
at the spill. It is somewhat obvious, but how much damage is 
still left, either in terms of oil, contaminated ground, air 
pollution, homes where there is still oil. Just damage in any 
sense of the term that one would ordinarily think of at this 
point.
    And then second, when do you think it will all be totally 
cleaned up?
    Mr. Perciasepe. Let me try a couple of observations based 
on those questions. We have set in our order a plan that we 
would hope that we would be done by the fall with the cleanup. 
But that is going to be highly dependent on a lot of variables, 
including those SCAT teams, which I want to make sure I tell 
you what the actual SCAT stands for. It is shoreline cleanup 
assessment technique, which are groups of people that will go 
up and down the shoreline and continue to assess the damage, 
and then sometimes you have to come back again once things are 
revealed.
    We also know that the conditions from the flooding, we are 
starting to see as the water recedes some of the soil that has 
been oiled along the shoreline and we are out there monitoring 
and sampling that soil. We are also seeing, as I mentioned in 
my testimony, some oil that has accumulated under some of the 
debris piles that are associated also with flooding.
    So we are in the process of assessing those with our 
partners, including the State, and we will be aiming toward the 
State-defined cleanup standards that they are involved with 
helping us define as we go along.
    Also, on some of the ranch and agricultural lands along the 
river that may have been oiled, soil that may have been oiled, 
we are also bringing the Department of Agriculture in to work 
with us and to help us assess what guidelines and cleanup 
standards might be appropriate for some of those areas that did 
get oiled.
    Senator Baucus. So what agencies, what government 
determines what standards? You mentioned the State has 
standards, then you mentioned USDA. It sounds a little 
confusing.
    Mr. Perciasepe. Well, USDA, we are bringing them in for 
their technical expertise, but we will go with what the State 
determines is a cleanup standard that they would like to see, 
and will continue the SCAT process until we get to those.
    Senator Baucus. Do you work with the State on that 
standard?
    Mr. Perciasepe. Yes.
    Senator Baucus. And do you know what the State standard is?
    Mr. Perciasepe. Well, it will depend on whether it is soil 
or water or sheen on the water. Under the Clean Water Act, we 
want to remove the oil and oil products so that there is no 
more visible sheen or oil in the environment. The State may 
have some additional cleanup standards that they want us to 
follow and that we will want to incorporate. So I don't want to 
say it is one or the other.
    On the Clean Water Act, we have certain responsibilities, 
but we also have a responsibility to work with our partner at 
the State.
    Senator Baucus. That is what I was going to ask. So what is 
the Federal responsibility under the Clean Water Act? What is 
it?
    Mr. Perciasepe. Under the Clean Water Act, which sets up 
the oil pollution control program, we are responsible for 
directing the cleanup activities that are underway now.
    Senator Baucus. I don't want to be too technical here, but 
are there Federal standards under the Clean Water Act with 
respect to oil spills? Are there cleanup standards?
    Mr. Perciasepe. Well, there are water quality standards 
that are set for the river that we have to get back to.
    Senator Baucus. Right.
    Mr. Perciasepe. Those standards are also, I might add, Mr. 
Chairman, are standards that the State sets for the water 
quality standards under the Clean Water Act. Under cleaning up 
oil, there are a number of observable approaches you take, 
including removal of the visible oil and the sheening on the 
water.
    Senator Baucus. Right. I guess the question is, we need to 
know what we are dealing with here. That is, what is the 
standard? People need to know what the standard is.
    Mr. Perciasepe. Well, you have the drinking water standard 
for drinking water.
    Senator Baucus. I know. I am just talking about the average 
guy who has a place along the river and he is going to want to 
know and he should know what is the standard by which EPA, the 
State, Exxon, all related here, will clean my place up to. So 
how is he supposed to know?
    Mr. Perciasepe. Well, it will be water quality standards of 
the State of Montana is what we will make sure we achieve.
    Senator Baucus. Is that known what that is?
    Mr. Perciasepe. I don't have it here in front of me, but, 
yes, it is known.
    Senator Baucus. It should be known.
    Mr. Perciasepe. And it will be. And if it isn't known, we 
will certainly make sure it is.
    Senator Baucus. Can I ask you to do that, please? Just work 
with the State and do all you have to do to make sure the 
people affected by this spill know what the standard is to 
which damage is supposed to be cleaned up to. Everybody needs 
to know what the standard is. It sounds like we are not quite 
sure what the standard is at this point.
    Mr. Perciasepe. Well, first of all, you are going to want 
the agricultural land to be able to be used for its 
agricultural purposes. That is why we are having some technical 
advice from the USDA. We have water quality standards that are 
set by the State and we have drinking water standards that are 
set by EPA. And we will want to make sure all of those 
components are taken into account and used by the SCAT teams 
for the final cleanup.
    Senator Baucus. Right. I understand that. You are basically 
the lead agency, aren't you, the EPA?
    Mr. Perciasepe. That is correct, for the cleanup.
    Senator Baucus. The cleanup, and I am talking about the 
cleanup here. So could you take charge of putting these 
standards together and incorporate it into something that is 
easily understood by people?
    Mr. Perciasepe. Yes.
    Senator Baucus. For example, the farmers and the ranchers. 
You are going to have to talk to the USDA, I suppose, and find 
out what they can help you with.
    Mr. Perciasepe. Yes. We will be responsible for making sure 
of that. I want to say that we must do this in partnership with 
the State because they have a very important and primary role 
here.
    Senator Baucus. Yes, that is clear. I know I have sat many 
times in the intersection between the State and the Feds and 
the Clean Water Act.
    Mr. Perciasepe. And so we would be, as we go through that 
process of looking at the river water and any drinking water 
that may have been impacted down the line there, we are going 
to be circling back with those requirements for cleanup to the 
responsible party.
    Senator Baucus. I understand that there is still oil odor 
in some places. Why is that and how can that be remedied?
    Mr. Perciasepe. Our air quality monitoring, we have not 
seen anything in the air that would be from the oil that would 
be of any immediate health concern. In fact, the night when 
most of the volatile organic matter was coming off of the oil, 
things like benzene perhaps, working with the local fire 
departments and health departments, there were evacuations of 
people until that subsided.
    But it is important to note, and this is hard to note 
sometimes, but the human nose is actually more sensitive than 
the monitoring devices. In other words, we can smell some of 
these organic chemicals at very, very low levels, even below a 
level that would cause health concerns.
    Senator Baucus. You ought to have dogs. They are better 
than people.
    Mr. Perciasepe. So that doesn't mean that we are not 
monitoring to make sure that those levels are not at a higher 
level of health concern. And of course, we don't want those 
odors to be there in the long haul. But the point I am trying 
to make, it is possible for people to continue to smell some of 
the oil odors even though the levels are not showing up on our 
instruments.
    Senator Baucus. Well, people smell it irrespective of what 
shows up on your monitors and it is distasteful. It is 
unpleasant.
    Mr. Perciasepe. That's right. That needs to be part of the 
remediation.
    Senator Baucus. Smelling the odor is still unpleasant and 
that will be part of what is potentially harmful.
    Mr. Perciasepe. Well, I would agree that people could be 
adversely affected by odors that are not what they are normally 
subjected to. But removing the oil so that the odors go away is 
part of the process here. But we are also trying to monitor, 
Senator, in the ambient air to make sure that they are not at 
the level where we are looking at a long-term cancer risk or 
anything of that nature.
    Senator Baucus. Right. Do you know the type of oil that was 
in the pipeline that spilled? Do you know what was in it?
    Mr. Perciasepe. Well, it is generally well known oil. It is 
from usually a mix at this refinery from oil from Wyoming or in 
some cases a mix of Canada oil sands oil. That general mix is 
generally well known. But we have specific samples of the soil 
at the lab, as does the State and others, and we are waiting 
for those lab results which will give us a more precise thing.
    But we generally know the kind of oil this is and don't 
expect anything extraordinary when we see those results, but 
they will be confirming the content. As soon as we have those 
results from the lab, which I am expecting any day now, we will 
post that on our website and present it in our public meetings 
that we have out there.
    Senator Baucus. Great. For the record, could you send the 
results of those tests to this Committee, please?
    Mr. Perciasepe. Yes, yes. Those results will be made public 
as soon as we get them.
    Senator Baucus. OK.
    The big question a lot of landowners are going to have, who 
do they trust? How do they know what this stuff is? How do they 
know when this is going to be cleaned up? People don't want to 
be left hanging. They want to know if there is an end date and 
so forth. And I understand that you have ordered ExxonMobil to 
remediate contaminated areas by August 18th. Is that correct? 
And remediate all areas by September 9th.
    Mr. Perciasepe. Right.
    Senator Baucus. And so what does that mean? Will that be 
total remediation? Will that be partial? What does that mean?
    Mr. Perciasepe. Well, we want the full remediation to the 
kinds of standards we were talking about earlier. We will get 
to everyplace that has oil on it as we learn of them or find 
them through our SCAT teams.
    And I want to say that order was done within days of the 
spill to put fire in everybody's belly on a schedule. But if we 
determine that more time is needed for cleanup and we are not 
done, we will extend that to keep ExxonMobil working on the 
cleanup.
    And so those dates are out there. We are requiring plans to 
be made to cover all of that during those time periods. And we 
still think that is possible, but the dynamic of the 
floodwaters and what we find as those recede could extend those 
dates.
    Senator Baucus. Is the standard 100 percent clean? What is 
the standard basically? I am a landowner. Can I be assured my 
place is going to be back where it was, period?
    Mr. Perciasepe. That would be the objective, Senator.
    Senator Baucus. To have no impact from the oil on the land 
where the oil has been deposited? And one of the governing 
factors there will be making sure that land could be used for 
what it was used before the spill. So it is your understanding 
the use of the land or what? Some of it is for grazing. Some of 
it is used for recreation and some of it is used for crops. 
What is your understanding?
    Mr. Perciasepe. Yes. There were crops. There was grazing 
land. There may have been recreation land. Obviously, some of 
it is in the Billings more urbanized area. All of those 
previous uses and existing uses will have to be protected and 
enabled after the cleanup.
    Senator Baucus. OK. How much is left to be cleaned up, what 
percent?
    Mr. Perciasepe. I do not know the answer to that, again, 
because of the floodwaters and the fact that we are waiting for 
some of those floodwaters to recede to see what is under there. 
And as I mentioned, we are discovering some of the oil has 
accumulated under some of the snags and debris piles. It is 
hard to say for sure how much more might still be out there.
    But again, we are not going to rest until we find it all 
and direct the responsible party to clean it up.
    Senator Baucus. So when do you think you will know how much 
more work you have to do? By what date?
    Mr. Perciasepe. We are hoping that we can clean it up in 
the timeframe that was in the order, and that would be what we 
would aim for at this time. But if we discover more than we 
currently know, and we need the responsible party to have more 
time to clean it up, we will amend the order to give more time 
to make sure that we don't leave anything behind.
    Senator Baucus. I appreciate that. Could you keep this 
Committee informed if there are any changes that might occur?
    Mr. Perciasepe. Yes, we will. And we are going to continue 
to have daily briefings. We are going to continue to have 
public meetings. As we get more data, we will put it not only 
on our website, we will report it at public meetings in the 
area there. And if there is a need to extend the time for 
cleanup because of what we discover as the water recede, that 
will be a clear public discussion and we will definitely keep 
this Committee notified of that.
    Senator Baucus. Do you have enough resources?
    Mr. Perciasepe. I think we do, yes. I think what we have 
here is, and we have been adding as we thought we needed it and 
we ramped up pretty quickly. And as I said, there are over 700 
people now working on this.
    The issue is going to be the dynamic between the 
floodwaters receding and our discovery process through that 
SCAT teaming that I mentioned. And time may be the only other 
resource we need a little bit more of than we put in the order. 
But I think we are adequately personed up right now.
    Senator Baucus. Before I turn to Mr. Vitter, a few 
questions about your relationship with ExxonMobil. How much of 
the work are they doing? It is my understanding they have 
responsibility. It is my understanding that under the law, 
ExxonMobil has responsibility to pay for the cleanup. If you 
could just tell me about the interaction between EPA and Exxon 
as you are working to remediate here.
    Mr. Perciasepe. Well, the Clean Water Act sets up a process 
where there is a responsible party. ExxonMobil has clearly 
indicated that they are the responsible party. There has been 
no arguing about that. They have put the resources in it. The 
majority of the resources that are onsite working are directly 
funded by ExxonMobil.
    We have a number of EPA employees, as well as EPA 
contractors augmenting that and verifying the work. All of 
that, plus State resources or tribal resources, and we are 
working with the tribes as well, all of those resources will be 
reimbursed when we get to the end of the process here.
    There has been some funding put forward already from our 
oil cleanup fund, and again the responsible party will have to 
reimburse that when we see what the final bill is.
    Senator Baucus. Thank you.
    I am honored, we are honored to be joined by Senator 
Vitter. Senator, if you wish to make a statement?
    Senator Vitter. Thank you, Mr. Chairman. Actually, I am 
going to wait until the second panel and have some questions 
there, but thank you.
    Senator Baucus. You bet.
    A couple of questions of you, Ms. Quarterman. Basically, if 
you could just go through a little bit of chronology here. It 
is my understanding that last, I don't know what it was, August 
or sometime that the people of Laurel were a little concerned 
about the integrity of the pipeline, about the river 
potentially rising. Well, not August, but earlier on before we 
had the incident. And they consulted with EPA, consulted with 
the State, a little concerned about the integrity of the 
pipeline, and maybe even ExxonMobil, too.
    And then, as I read the history, there was a review of the 
pipeline. PHMSA talked to Exxon. Exxon conducted a study and it 
turned out that basically the pipeline was OK. Then, we had 
this incident.
    But if you could, from your perspective, just walk us 
through the chronology of what happened.
    Ms. Quarterman. Absolutely. About October 2010, we were 
approached by the city of Laurel, I believe their Public Works 
Department. They contacted our inspector. I think they had been 
trying to find among the government agencies whose 
responsibility it was for pipeline safety.
    And he contacted our office and said that they were 
concerned about the Silvertip pipeline. I think their concerns 
primarily related to the south side of the pipeline crossing. 
At that point, we met with them and with Exxon and we required 
Exxon to do a depth-of-cover survey to determine the depth of 
the pipeline and how much earth was on top of it.
    Senator Baucus. That was under the river?
    Ms. Quarterman. Under the water, correct.
    They came back to us and told us that they had at least 
five feet of cover on the part of the pipeline that was on the 
riverbed. That was sufficient to meet the four-feet 
construction requirements in the pipeline safety regs.
    The level of the river continued to rise. On about May 
25th, we were contacted again by the city saying the river is 
very high. We still are concerned about this pipeline. Again, 
we contacted Exxon to ask them specifically about the south 
bank of the river crossing. The concern there was that if the 
river were to rise to a certain level, it would get into what I 
believe is Riverside Park. And there, the pipeline could 
potentially be exposed completely if the river were to rise 
high enough.
    So we contacted Exxon about and asked them about that south 
bank of the river and we were informed that they had on average 
12 feet of cover on top of the pipeline on the south river 
crossing.
    At that point, our inspector began to go out there on a 
daily basis to observe the pipeline river crossing just because 
the river waters were very high.
    Senator Baucus. And when was this? About what date?
    Mr. Quarterman. I believe this was May 31st. And at the 
same time, we began to monitor all the Montana pipelines. We 
contacted all the operators associated with river crossings in 
that area to ask them to pay special attention because the 
waters were very high.
    So that continued on. And around June, the city was again 
contacting, I believe, Exxon. And so we decided to go into 
Exxon and look further at their integrity management runs, to 
do field verification. They had done an in-line inspection of 
this line in 2004 and 2009. So our folks went in and looked at 
the raw data for that in-line inspection in 2009 to see if 
there were any causes for concern in terms of anomalies on the 
pipeline at the river crossing.
    As a result of that inspection, I think they found one 
anomaly in 2009. However, the size of the anomaly was below our 
threshold for required fixing at that time. And the 2004 
inspection run also showed the same anomaly. So there hadn't 
been any growth between 2004 and 2009, so they felt comfortable 
that in terms of the integrity of the line that there wasn't an 
issue there.
    Senator Baucus. But just cutting to the quick here, we 
don't have a lot of time, something went wrong.
    Ms. Quarterman. Absolutely.
    Senator Baucus. At one point, both ExxonMobil and PHMSA 
thought everything was OK and everything wasn't OK. The line 
ruptured. Lots of oil spilled.
    So what went wrong? What went wrong with the company? And 
what went wrong with PHMSA? Because you both agree, yes, 
everything is OK and it wasn't.
    Ms. Quarterman. Well, you know, we are in the middle of an 
investigation of what happened on the pipeline. We do not 
operate the pipeline on a day-to-day basis. We came in to 
assist the State with their concerns about the pipeline. 
Ultimately, the operator is responsible for operating its 
pipeline. They can't rely on us to say yes or no, this is a 
good idea to continue to operate the pipeline.
    Senator Baucus. What is your role then? If the company 
could do what it wants to do, what is your role?
    Ms. Quarterman. Our role is to oversee the decisions that 
they make. The only instance in which we can essentially tell 
an operator to stop operating its pipeline is if we see an 
imminent hazard. And I would have to say in this instance with 
the foresight of 20/20, obviously, the pipeline should have 
been shut down at the time. And given the data was available, I 
don't think that our pipeline inspector thought that he had the 
authority to order Exxon to close the pipeline.
    Senator Baucus. When you look at pipeline integrity and 
crossings, do you look at hydraulics and the riverbed of 
specific rivers? I mean, every river is different, and the 
riverbed of every river is different. Some are gravelly, some 
are clay, some might be granite. Who knows? And the flood 
hydraulics of every river are different.
    So what do you do? Do you just take willy nilly whatever 
the company says to you? If the company says, well, it looks OK 
to us; looks like we have five-foot cover here. Looks OK to us.
    Unless you see an imminent danger, is that just it? Or do 
you ask them about hydraulics? Do you ask them about the 
riverbed and how it varies, this river compared with other 
rivers?
    Ms. Quarterman. That will be the subject of our 
investigations. We will have to go. We have obviously begun to 
interview Exxon and gone to its control room. And we will go to 
its integrity management plan, not just the data, but the plan 
itself. Pursuant to those regulations, the operator has a 
responsibility to----
    Senator Baucus. It sounds like PHMSA on its own doesn't do 
any of that, what I just suggested. That is, look at the 
specifics of the specific river.
    Ms. Quarterman. Our responsibility is to review the 
operating and maintenance procedures and the integrity 
management plan for the operators. It is the operator's 
responsibility to operate its pipeline safely. And pursuant to 
our regulations, they are supposed to put in place a continual 
process for improving their pipeline and ensuring, evaluating 
it, assessing the conditions and maintaining the integrity of 
the pipeline, including those associated with flooding and 
other climatic issues.
    Senator Baucus. Right. Do you have specific requirements as 
to the integrity of pipeline plans? That is, specific 
requirements as to what should be contained in that integrity 
plan?
    Ms. Quarterman. Yes, we have requirements.
    Senator Baucus. Could you give me examples of one or two or 
three?
    Ms. Quarterman. Well, every operator is supposed to at the 
beginning perform a risk assessment of its pipeline system. So 
at every place where it crosses a river or where a soil 
changes, it should know the conditions of that line in terms of 
whether it is particularly corrosive so it can determine what 
sort of testing should be done pursuant to the integrity 
management plan. It should know the river crossings and know 
whether or not it is one that is subject to frequent flooding, 
and make a determination as to whether they need to go beyond 
what it is in the minimum requirements in the regulations.
    So we require them to do a continual improvement of their 
own systems. I mean, we have certain minimum requirements in 
our regs, but it doesn't mean that is the only thing an 
operator needs to do. They really need to be active on their 
own pipeline in ensuring that, especially in a high-consequence 
area like this, they set forth a plan that addresses all of the 
concerns.
    Senator Baucus. How accurate are depth-of-cover surveys?
    Ms. Quarterman. I don't know that. We will have to get that 
information for you.
    Senator Baucus. Do you just generally have an idea? You are 
the outfit. You are the agency. You are PHMSA. I mean, if you 
asked Exxon to do a little investigation and part of that is 
your depth of cover, and they come back and say depth of cover 
is OK. My question is how accurate are depth-of-cover surveys?
    It gets to an earlier question. Do you look at specific 
rivers, the hydrology of a specific river? Of a riverbed 
content of a specific river? All this gets to the accuracy of a 
depth-of-cover survey.
    Ms. Quarterman. I have heard plus-or-minus six inches, but 
I would not commit to that. I would want someone to review that 
and respond.
    Senator Baucus. To be honest, ma'am, it sounds like you are 
not really on top of this. I mean, that is my impression I am 
getting so far and I urge you to get more on top of it. I have 
to be candid. That is the impression I am getting.
    Could you tell me a little bit about the difference between 
trenches and drilling? And when one is more appropriate 
compared to the other?
    Ms. Quarterman. This particular pipeline was trenched or 
put in with an open-cut technology which was the prevalent 
technology in use until I would say the early to mid-1990's. 
More recently, the horizontal drilling technology is quite 
frequently used for river crossings. You would, rather than 
stop the waterway and trench beneath and put the pipeline in, 
you would actually go underneath the river from one side to the 
other, so it would be much deeper.
    Senator Baucus. When is it more appropriate to drill as 
opposed to trench?
    Ms. Quarterman. We don't have set standards in our 
regulations at this point in time. One of the things that we 
have done very recently is to put in place, we have opened up a 
set of comments for our Hazardous Liquid Integrity Management 
Program. And essentially everything is on the table at this 
point.
    One of the things that happens at the end of our 
investigation will be that in addition to reporting on what 
happened in this particular instance, we will also make a 
recommendation about changes that need to be made to the 
pipeline safety laws.
    Senator Baucus. Well, obviously, when do you anticipate 
concluding your investigation as to the cause of what happened 
in this case?
    Ms. Quarterman. At this point, we have not been able to get 
the pipe out of the river. We are expecting perhaps in August 
that the waters will be low enough so that it can be removed. 
At that point, it will take probably two or 3 months for us to 
get the results and conclude our investigation.
    Senator Baucus. So you probably won't know until October. 
Is that right?
    Ms. Quarterman. That is probably right. If you compare it 
to some other investigations, I think it is probably right.
    Senator Baucus. Well, I urge you to devote a lot of 
attention to finding out what went wrong as quickly as you can 
and not let this drag out. And report to this Committee your 
findings. Send us a copy of the report.
    Ms. Quarterman. Absolutely.
    Senator Baucus. OK. I am just not sure, frankly, ma'am, 
that I am satisfied that your agency is on top of things here.
    Ms. Quarterman. Well, let me assure you that our agency is 
very aggressively looking at pipeline safety issues and it has 
been a period during which there have been a number of 
significant incidents after I would say almost a decade of few 
incidents. And we are looking diligently at all aspects of the 
pipeline safety program.
    As I mentioned, with respect to hazardous liquids, we began 
a review of those rules last year. We are in the middle of a 
rulemaking process on that. With respect to gas transmission 
pipelines, we are about to begin a rulemaking associated with 
those pipelines. At the beginning of the Administration, we put 
out a rule with respect to the distribution pipelines. We just 
expedited the application of the control room management rule 
that went into effect.
    Senator Baucus. All I know is in this case the company made 
a mistake. It was wrong about the integrity of the pipeline. 
Your agency made a mistake. It was wrong about the integrity of 
the pipeline. And it is our job to do all we can to make sure 
that there is no reoccurrence.
    Ms. Quarterman. I agree that we don't want a reoccurrence.
    Senator Baucus. And I am urging you in your report to tell 
us what needs to be done to minimize to close to the 
probability of zero any reoccurrence.
    Ms. Quarterman. Yes, that is our goal, zero.
    Senator Baucus. OK, and I look forward to it.
    Ms. Quarterman. Thank you.
    Senator Baucus. To seeing that report. Thank you very much.
    Senator Vitter, I guess you have no questions?
    Thank you both very much for taking the time to come and 
talk to us. We deeply appreciate it.
    Mr. Perciasepe. Thank you, Mr. Chairman.
    Senator Baucus. Thank you.
    OK, our next panel, we have three: Mr. Scott McBurney, who 
lives on the Yellowstone; Hon. Bill Kennedy, County 
Commissioner, Yellowstone County; and Gary Pruessing, 
President, ExxonMobil Pipeline Company.
    OK. I will begin with you, Mr. Kennedy, Bill Kennedy, 
County Commissioner who serves Yellowstone County with utmost 
distinction for a good number of years; always reelected.
    Bill?

 STATEMENT OF HON. BILL KENNEDY, COMMISSIONER, DISTRICT THREE, 
                  YELLOWSTONE COUNTY, MONTANA

    Mr. Kennedy. Thank you, Senator Baucus, and thank you for 
inviting me to the Committee for insight on the Exxon oil spill 
in the Yellowstone River near Laurel, Montana, located in 
Yellowstone County.
    I have some prepared statements and I would like to, after 
listening to the statements earlier, I would like to make a 
couple of comments on that also.
    I am Bill Kennedy, a Yellowstone County Commissioner and 
the pipeline crosses Yellowstone River located in my county. We 
are located about 140 miles from Yellowstone Park and we had a 
lot of inquiries about was there a spill in Yellowstone Park. 
It was a spill in the Yellowstone River. We are 140 miles to 
the east. We are about 300 miles to the confluence of the 
Yellowstone River and the Missouri River. So as you can see, we 
are in the mid-area, but the Yellowstone River flows into the 
Missouri then on to the Mississippi.
    And Senator Vitter, that ends up down in Louisiana.
    Since May, we have had flooding, and in June we received a 
Presidential emergency declaration on our county and statewide. 
The amount of snowpack is way above normal and the Yellowstone 
River has been higher since May. This gives you a background 
for the July 1 oil break of the ExxonMobil pipeline.
    I have been monitoring the flooding on the Yellowstone 
River almost daily since the river hit the flood stages. Our 
disaster and emergency service director was out there and we 
have been monitoring the height of the river, and actually it 
has been high water since May and we are still in the high 
water stages even though we have dropped. We are still in high 
water stages.
    Late Friday night on July 1, our Disaster and Emergency 
Service Director Duane Winslow opened the Emergency Operations 
Center. The Laurel Volunteer Fire Department, along with the 
Yellowstone sheriff's deputies, evacuated approximately 125 
people from their homes along the Yellowstone River. The air 
was heavy with the smell of the crude oil. The immediate danger 
to the public was not known at the time, but all emergency 
personnel were notified, and that is very important in our 
county and especially all the counties below us that feed out 
of the river.
    Approximately 42,000 gallons of oil had leaked into the 
Yellowstone River. Emergency personnel and Exxon employees 
responded immediately. Within the next hour, pipeline valves 
had been closed, shutting down much of the oil.
    We live in the west and water is very important for us, and 
safe drinking water, irrigating our crops, watering livestock, 
and tourism on our Montana rivers are very important to us. But 
public safety and cleanup are our top priorities on this 
project. This is a big deal and all parties hit the ground 
running.
    At 6:30 a.m. on Saturday morning, I was out there on the 
river and then we called a press conference that morning. 
Immediately, about 8 to 8:30, we called the press in to let the 
public know that the drinking water was safe. The city of 
Billings municipality, the city of Laurel is above where the 
break was. The city of Billings, the Lockwood intake, all of 
them were shut down early in the wee hours of the morning on 
that Saturday morning. Exxon was already on board, in addition 
to our local disaster and emergency personnel. EPA and the 
State DEQ were en route and the response was immediate, and the 
July 4th weekend became a real-life disaster in our county.
    The cleanup process was underway, but at this time it was 
very evident that the local government was informed, but not 
involved in the decisions and the next steps of what was going 
on. EPA took charge, but samples and results were slow to come, 
taking from four to 7 days. And as you heard earlier, they are 
still waiting for the sample results.
    The public, especially the landowners, were upset over the 
unknown, and by day three I asked to be at the table on the 
decisions and the plan for the cleanup. It was agreed that the 
county would sit on the board, and we were briefed, but 
sampling and cleanup were still left to the EPA and DEQ.
    Exxon did take our suggestions. We provided mapping and the 
landowners' names and they contacted our residents. I asked 
every agency to have a live person on the phone and face-to-
face meetings with the public. Exxon had briefings daily, then 
EPA had daily briefings. The State set up a local office and 
took their own samples, but we all need to work together, and 
that is very, very important on this.
    We need to have a strategy to keep local government 
officials on board and in decisionmaking positions. We know the 
residents, the geography and the companies in our community. 
This spill opened our eyes to what a leak can do and how our 
emergency planning works. We also know now that we need to be 
included on decision on cleanup and future safety planning for 
residents. We have five other pipelines also in this vicinity 
under the Yellowstone River.
    The pipelines are safer than trucking and rail and keep 
good-paying jobs in our community. We have three refineries and 
have always had expectations that DOT check and assured 
everything was good. This is a wake-up call for our county to 
be more involved.
    Some positive outcomes that came is we are now invited to 
participate in the daily briefings on the status of the 
cleanup. We actually get emails every day from EPA. Local 
landowners have face-to-face meetings with Exxon and the 
agencies, which we have insisted on and they do have that back-
and-forth dialog.
    Local elected officials are included in the briefings. 
Exxon and EPA have held public meetings, which came from our 
insistence. Local work force is being trained for hazardous 
cleanup and we have 125 people in the local community now that 
are being trained. The public now knows what to expect from a 
public response system, which is very, very important.
    We have assurances from Exxon that the property will be 
cleaned up and put back to the way it was before the leak. And 
we have independent water, air and soil monitoring and sampling 
through the State and EPA to confirm these assurances.
    But can we do better? Publicity will take a while to 
explain to agricultural producers and tourists that the 
Yellowstone River is safe to irrigate their crops and water 
livestock and that tourists can still float and fish on the 
Yellowstone River.
    Communication between all parties took a few days to be 
seamless and I will tell you, we are still working on that and 
it needs to be from the very onset. Local government officials 
are still not openly included in decisions. And as you saw with 
DOT and EPA today, never once did you hear in their testimony 
that they mentioned local government officials. They have 
mentioned they work with the State. They work with other 
Federal agencies, but they have never worked with the local 
elected officials.
    The city of Laurel was brought up because they saw a 
problem. The ongoing dialog with the city of Laurel, with 
Yellowstone County, I don't think Yellowstone County was even 
mentioned in the dialog today.
    So as I can say, local officials are still not openly 
included. I would say that all parties seem to be working 
together in the community. I was happy today to hear what the 
amount of time for the cleanup is going to be. I hadn't had 
that date at all. And the one thing that we have not known in 
the county is what are the rules and what standards are we 
going after. We have also involved our extension agent who 
works with all the agricultural landowners and we asked him to 
get involved.
    I spent the last week with county commissioners from across 
the County at the National Association of Counties. And Senator 
Vitter, I was with your Louisiana county commissioners. I was 
with the Florida county commissioners and county commissioners 
along the Gulf States as they were talking about the oil 
cleanup.
    The one thing that the National Association of Counties and 
also the county commissioners in the Gulf States and everyone 
that has had oil spills have talked about is we need policies 
to strengthen local government involvement under the Oil 
Pollution Act. We believe that the Federal agencies that do 
oversee OPA must be required to consult and coordinate with 
local governments in environmental protection, oil spill 
contingency planning, training and implementation of the 
processes.
    That is needed. That is one thing that we have seen from 
this spill. We have been working with our local agency and with 
our local landowners, but it seems like we are the last ones to 
get the call and to sit down and talk about it.
    And when everybody leaves town and it is all over, the 
local elected officials are still there.
    Thank you.
    [The prepared statement of Mr. Kennedy follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
      
    Senator Baucus. Thank you, Bill.
    Mr. Pruessing, you are next.

STATEMENT OF GARY W. PRUESSING, PRESIDENT, EXXONMOBIL PIPELINE 
                COMPANY, EXXONMOBIL CORPORATION

    Mr. Pruessing. Chairman Baucus, Ranking Member Vitter, I 
appreciate the opportunity to discuss with you the pipeline 
incident that occurred on July 1st in the Yellowstone River in 
Montana and to update you on the progress that we have achieved 
to clean up the spill.
    Before I begin, however, allow me to repeat our sincere 
apologies to the people of Montana. We deeply regret that this 
incident occurred and we are steadfastly committed to not only 
complete the cleanup, but also to build the learnings from this 
incident into our future operations.
    This first requires that we understand exactly what 
occurred. We do not yet know the precise cause of the apparent 
breach in the Silvertip pipeline and will not likely know until 
our investigation is complete. We do know that the pipeline had 
met all regulatory requirements, including a 2009 pipeline 
inspection, a December 2010 depth-of-cover survey, and 
additionally as recently as last month, the U.S. Department of 
Transportation's Pipeline and Hazardous Materials Safety 
Administration, or PHMSA, performed a field audit of the 
pipeline's integrity management program.
    And of course, we do know the effects of the incident. The 
pipeline lost pressure the night of July 1st, and within 7 
minutes, our employees shut down the pumps. Shortly thereafter, 
we began closing valves to isolate segments of the pipeline and 
minimize any release. We estimate that no more than 1,000 
barrels of oil spilled.
    We notified the National Response Center and immediately 
began implementing our emergency response plans, drawing upon 
local resources from the ExxonMobil Billings refinery, as well 
as our experts from across the Country. A unified command 
center, led by the Environmental Protection Agency, and 
involving more than 750 people, now directs the response.
    This coordinated efforts, combining the resources and 
expertise of government, industry and others, is crucial to 
effective cleanup and recovery. I speak on behalf of the entire 
company in thanking the public servants at all levels of 
government and the volunteers from nongovernmental 
organizations contributing to the effort.
    This includes professionals from PHMSA, the Environmental 
Protection Agency, the U.S. Department of the Interior, the 
Montana Department of Environmental Quality, Montana Fish, 
Wildlife and Parks, the Yellowstone County Commission, local 
response organizations, International Bird Rescue and many 
others.
    As part of our cleanup strategy, we have divided the area 
downriver of the spill into four zones. In the first two 
cleanup zones covering a combined distance of approximately 19 
miles, we have deployed approximately 52,000 feet of boom, 
270,000 absorbent pads, and several vacuum trucks, boats and 
other equipment to capture oil.
    Our priority is to ensure the cleanup is safe and 
effective, a task made more challenging by the persistent high 
water levels in the Yellowstone River.
    On July 17 , we completed a 2-day procedure to remove any 
remaining crude oil from the Silvertip pipeline at the 
Yellowstone River crossing. The work was conducted under the 
direction and oversight of the EPA and the Montana Department 
of Environmental Quality. Through the Unified Command, we 
continue to conduct air and water quality monitoring of over 
200 miles of the river, as well as wildlife assessments and 
recovery efforts.
    To date, EPA monitoring confirms there is no danger to 
public health and no reported water system impacts.
    We have also brought in recognized experts such as 
International Bird Rescue to actively monitor the impact on 
local wildlife. So far, impacts have been limited and small in 
number and a list is available on the website. Monitoring and 
mitigating impact of the spill on wildlife will remain a 
priority of ours throughout the cleanup.
    As the Chairman knows, the Silvertip pipeline plays an 
important role in supplying energy to his constituents in the 
Billings area and therefore helps sustain local jobs and 
economic growth. We are committed to replace the damaged pipe 
using horizontal directional drilling techniques with a new 
section that we will lay approximately 30-feet below the 
riverbed, consistent with the PHMSA direction.
    Of paramount concern to us is the impact on the local 
communities. We established a community information line and we 
have received more than 370 calls. About 160 of those calls are 
claims related to property, agriculture and health and we are 
actively responding to each one of those.
    We have also sent several teams door to door to visit more 
than 250 residents in the most impacted areas. It is our goal 
to respond to individual concerns within 24 hours.
    I am pleased to report that these outreach efforts have 
mostly received a very positive response. In fact, about 160 
calls to the information line have been offers of help. This 
outpouring of local volunteer support is immensely helpful. It 
testifies to the resilience, industry and generosity of the 
people of Montana and we deeply appreciate their understanding 
and support.
    To repeat, ExxonMobil Pipeline Company takes full 
responsibility for the incident and the cleanup and we pledge 
to satisfy all legitimate claims. But even then, our work will 
not be done. We are equally committed to learn from this 
incident and to build those learnings into our future 
operations.
    Thank you.
    [The prepared statement of Mr. Pruessing follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
      
    Senator Baucus. Thank you, Mr. Pruessing.
    Mr. McBurney, you are next.

         STATEMENT OF SCOTT MCBURNEY, MONTANA LANDOWNER

    Mr. McBurney. Senator Baucus, Senator Vitter, thank you for 
the honor of allowing me to testify. I would like to give 
special thanks to Senator Baucus' staff.
    My name is Scott McBurney. Since 2005, I have lived near 
the Yellowstone River between Billings and Laurel with my wife 
Sue and two sons. We own four horses, which we keep on 20 
acres. We have no river frontage, but are very close to the 
river. We put up high-quality grass hay, most of which we sell 
except for what we keep for our own horses. The middle of our 
hayfield had not been cut this year because it was too muddy 
after the big May flood.
    July 1st was a pretty hectic day. The river was at full 
flood mode for the third time this year and the U.S. Geological 
Survey forecast the river to be at 14 feet. At that level, the 
water covers most of my hay pasture and is just inches from 
getting into my shop and barn and less than a vertical foot 
from being inside my house.
    There were some pretty nervous people at my house that day. 
My wife and family had gone to bed and I was getting ready to 
do the same when the Laurel Volunteer Fire Department showed up 
at my house and my neighbor's house with their lights flashing. 
When they came to our house next, I met them in the driveway. 
The odor was really strong when I walked out the door and I 
have to tip my cap to those firefighters driving around in the 
dark looking for houses next to a flooding river.
    It was a mandatory evacuation and we found a motel in 
Billings on our fourth try. It was about 1:30 in the morning. 
When we got home the next day and I walked out in my pasture 
and found out that we had a problem. Oil had come over the 
ditch next to the river about halfway down my pasture. Big 
patches of oil were lying in the shortgrass where I had cut 
some hay. As you went further down the property away from the 
house, the amount of oil increased. Oily water stood in the 
ditches and in the pasture. The tall uncut hay had acted like a 
big brush and stopped a lot of the heavy thick oil. A thick 
line of oil showed on the edge of the uncut hay.
    There was something else that was troubling to me, the 
water standing in the pasture that during the two previous 
floods had been pretty clear was an ugly brown color. When we 
got home on Saturday, I made a call to ExxonMobil. We were 
called later in the day by Crawford Company, who are acting as 
ExxonMobil's insurance. We have had several meetings with the 
people from Crawford and ExxonMobil and they have always been 
very helpful and more than fair.
    On July 13th, Crawford wrote us a check for the hay we 
hadn't cut and for the loss of our pasture. The thinking is 
that once the ground dries out, ExxonMobil will remove all of 
the grass in the affected area.
    On July 15th, Crawford brought us a check for our hotel 
expenses. They also agreed to pay us to buy an electric fence 
and a water tank so we can put our horses our on the undamaged 
portion of our pasture with a temporary fence. We have put up 
an electric fence and the horses are out there getting fat.
    We have been talking to Crawford about independent soil 
testing. They have given tentative approval for this. They 
would like an estimate from the company doing the work and we 
are now trying to find someone to do it.
    We attended a meeting Wednesday, July 13th at Laurel High 
School. The information on air quality was good news. The air 
was fine. It smelled bad for a couple of days, but that is all. 
The questions I had about soil testing was not quite as clear. 
The EPA was going to do more, but a comprehensive plan was not 
put forward at that point. The information or advice on 
agricultural matters was incorrect or nonexistent.
    On July 12th and 13th, the EPA came to my house and took 
soil and water samples, one soil sample on 10 acres of pasture. 
It ended up seeming more like a public relations move than a 
quest for information about my property. They brought a 
television crew. My wife Sue was interviewed and was the lead 
story on Channel 8 news that night. So it was exciting, but I 
couldn't help feeling a little bit disappointed.
    I felt like the water testing was a little overdue. We 
won't have the results until July 27th, and that is almost a 
month after the pipeline broke.
    On the whole, I think EPA is doing a good job. They have a 
lot of work to do and it is probably too early in the process 
to think about the concerns I have, the long-term effects on 
soil and water. Right now, they are cleaning up oil and that is 
what they should be doing.
    The Montana Department of Environmental Quality came out to 
do some soil samples. On Monday, they took three samples. I 
need more information. How much oil is too much oil on my 
property? What is the long-term effect of oil on my grass? Will 
the grass be fit to use next year if it comes back? Why is some 
of my grass dying and some of it growing?
    There seems to me to be a gap in the knowledge. The EPA 
guys don't know much about farming and the farm guy doesn't 
know much about oil spills. I think the biggest worry the 
landowners have is property values. The reason I want 
independent soil testing is I want to have a report in my file 
cabinet that I could show anybody who might be considering 
buying my place someday a clean bill of health, if you will, 
for my property.
    I feel like ExxonMobil owes me this, the same with my water 
well. I would like the well to be tested for maybe 3 years or 
something. I don't think my water is bad. I just worry that 
somebody else might.
    We will face a lot of questions from our hay customers as 
well, and I would like to have some science behind the answers 
for them.
    Thank you.
    [The prepared statement of Mr. McBurney follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
    Senator Baucus. Thank you very much, Mr. McBurney.
    I will start with you, Mr. Kennedy. What are some of the 
questions that you would like to have been asked and answers 
given from the EPA folks and the PHMSA folks? You said as 
county commissioner, you were not consulted very much. So what 
are some of the areas that you would like to have answers to?
    Mr. Kennedy. Senator, when the Unified Command Center was 
started, it was the EPA. It was the responsible party and it 
was DEQ with the State of Montana. The local government wasn't 
included until I made a point of going back and saying we need 
to be sitting at the table.
    Then I was asked the question, you will just go along with 
whatever everyone else does? And I said, I would like to see 
what is being talked about so we can answer the questions for 
our own local folks that have the questions to be answered.
    Senator Baucus. What are some of the things that you could 
have helped them with?
    Mr. Kennedy. I think the one thing that we did help them 
with to begin with is we wanted to make sure that there was a 
face to every landowner that was affected. And we provided the 
GIS survey, the map, the names and the addresses of all the 
local landowners. We were able to mitigate between a lot of the 
landowners and actually offered to go out and meet with any of 
the landowners, and also Exxon or EPA. A lot of the local folks 
trust us and we would help them through the process.
    The other is the public meeting process. To begin with, we 
called the press conference to make sure that the public 
understood things were safe. We didn't get for days any 
sampling so we could get out to the public the opportunity to 
tell people what was actually in the sampling. I know there is 
an ability to sample and come back right away with to at least 
verify that there was not public safety problem there and then 
come back with the final results and everything that is in 
there. We needed to assure the public.
    The other piece that we did is that we brought to the table 
the City-County Health Department which is our health person in 
the county that had to assure the public that between the 
drinking water, between the health effects, there was no health 
problems there. They trust the local people. And I think that 
is really what we bring in.
    The other thing that we hear, Senator, is with the local 
elected officials, we are there years after the problem occurs. 
And we can follow through with making sure that the plan is 
adhered to. We do need to be a part of the plan to know that we 
can at least monitor the plan in the future after everybody 
leaves.
    Senator Baucus. You make good points. You are going to be 
there afterwards as commissioners. So do you have standards 
that you have recommended to EPA and to PHMSA and to Exxon that 
you want to see met that will be adhered to five, 10, 15 years 
from now? It gets to the point that Mr. McBurney is raising. 
What is the value of his property going to be five, 10 years 
from now? He wants something in his file to show that they 
cleaned up 100 percent when some potential purchaser comes 
along.
    Mr. Kennedy. Senator, we are going to need to be able to 
answer those questions, and to have a standard and the 
scientific research and looking at the sampling. We need to 
come back and be able to assure that those standards were met.
    Senator Baucus. I would suggest that you kind of figure out 
what those standards should be so that they are locked in place 
now.
    Mr. Kennedy. We would like those standards put into the 
plan, and we will be working with our extension agent and our 
folks in the county. We do have some folks that are experts in 
these fields. We can bring that information back to the people.
    Senator Baucus. Is there anything you heard from the other 
two panelists you would like to comment on? Did anybody say 
something so outrageous it needs a response?
    I am saying that somewhat facetiously.
    No, the panel that preceded you. Did any of the two 
witnesses say anything that you would like to respond to?
    Mr. Kennedy. I think I would like to talk about DOT and the 
monitoring. The city of Laurel did come forward and they were 
worried about the high water. Everyone has been worried about 
the high water, Senator, and we have had record snowpack in the 
mountains. We were lucky that we didn't get 90 degree 
temperatures the end of May, first of June like we have had 
before, but the water went up. We had major flooding in 
different areas. We had scouring under bridges.
    So the city of Laurel was right to call and say they had 
some real concerns. Their concerns were very legitimate. I 
think they were looked at and they moved on because it was high 
water and you couldn't get anybody on the river. But I really 
do think that when local government, be it the municipality, be 
it the county, calls, we really do need to get in-depth and 
look at what could happen in the future.
    And I think the one thing that we are looking at now is we 
haven't had flooding like this since 1978 naturally. Our last 
flooding on the Yellowstone River was down in the Huntley area 
back in 1998. So I think we all became a little at ease with 
the river. We have gone through the drought years and I think 
we need to beef it up and everyone needs to respond to high 
waters.
    Senator Baucus. Great. Thank you very much.
    I will turn to Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman. Thank you for this 
hearing. This is very important because the event is very 
significant and also as a Louisianan, I take great interest in 
this because we obviously will have many, many pipelines with 
the same potential vulnerability.
    I have several questions for Mr. Pruessing.
    Mr. Pruessing, there has been a lot of discussion in the 
media on conflicting timing about how long it took to shut down 
the oil flow from the pipeline. And I have tried to follow this 
carefully, but I have gotten confused. Can you describe that 
process in some detail and in particular why couldn't you 
simply close the block valves on either side of the Yellowstone 
River first?
    Mr. Pruessing. Thank you very much for your question, 
Senator. First of all, let me run through the chronology of 
what occurred on the evening of July 1st. This particular 
pipeline is operated out of our Operations Control Center in 
Houston, Texas. That is where we operate all of our pipelines 
across the United States. That is a typical technology for 
pipeline companies to have trained experts and all of the 
equipment in a single control center where you can operate the 
pipelines, the pumps, the valves from that one spot.
    At 10:40 p.m. Mountain Time on July 1st, we saw a pressure 
drop on the pipeline in our control center. The operators at 
that time did not know what was actually occurring. They did 
not know if a pump had shut down, whether an instrument had 
failed or something else. They analyzed the situation for 
several minutes. When they could not determine what was going 
on, they made the decision to shut down the pumps. So those 
pumps were shut down at 10:47. So within 7 minutes, we had the 
pumps shut down.
    We then proceeded to close individual valves along the 
pipeline to isolate various segments of the line. Many of these 
obviously are remotely controlled valves so that the operator 
in the control center could press a button and actually close 
some of those valves.
    Shutting down a pipeline is not like turning off your 
faucet in your home. You can't just close the valve and have 
everything shut off. The problem is you have large amounts of 
mass moving at high velocity down the pipeline. When that 
occurs, if you were to close the valve all of a sudden, you 
could over-pressure a line. That is an issue for liquid 
pipelines, and so we have a number of various valves along the 
pipeline to isolate various segments and it is a rather 
detailed and complex procedure to make sure that you isolate 
various segments properly without creating additional problems.
    We actually isolated the valve right at the riverbank at 
11:36, so it took us 49 minutes to close that valve from the 
time the pumps were shut down to the time that valve was 
closed. We actually still at that point did not know 
specifically at what site we may have an issue. It was not 
until 11:45 p.m. or approximately 9 minutes later that we 
received a call from the Fire Department of the city of Laurel 
to our control room that there was the smell of petroleum near 
the Laurel crossing. And that was really the first indication 
that we had to pinpoint where the issue was.
    We then proceeded to contact the NRC at 12:19, so just over 
30 minutes after the time when we had actually pinpointed the 
issue, we called the NRC.
    So this is the data that we have provided to PHMSA right 
from the very beginning. There has not been any change in this 
data. As was mentioned earlier by Ms. Quarterman, they have 
actually come and visited our control center and gone through 
the log of the various steps that were taken and when the 
valves were closed, but that is the actual details of the 
actual shutdown process.
    Senator Vitter. OK, thank you.
    We have obviously seen reports of plenty of wildlife 
impacts. But apart from direct wildlife impact, there clearly 
must have been impact to soil and plants on the banks of the 
river that will impact wildlife, including fish. What are you 
doing to address that, which relates to wildlife impact?
    Mr. Pruessing. We are working closely with the full unified 
command, of course led by the EPA; working with the State DEQ 
and ourselves as the responsible party. Each day, we go out and 
survey the river using aerial flights as well as walking the 
river to identify where there are patches that need to be 
responded to. That data is sent back on a daily basis and the 
plan is amended to identify where you are going to send 
resources out the next day to do the cleanup work. As was 
mentioned, we have over 500 people now out on the banks of the 
river doing the cleanup.
    The actual oil that was spilled, probably one of three 
things happened to it. A portion of it evaporated, as was 
mentioned earlier. A portion of it was broken apart and will 
biodegrade in the river naturally. And then a portion of it 
obviously got pushed out to the edges of the river where we are 
having to do the cleanup.
    As the river continues to recede, we will be able to get to 
more areas. We are working with the Unified Command on a daily 
basis to identify what areas to go out and respond to and make 
sure that we have the resources in the right places.
    Senator Vitter. OK. Before the break, for weeks or even 
months, there was obviously high water and flooding potential. 
Given that before the break, what do you do to think about and 
ensure pipeline safety?
    Mr. Pruessing. We have a very detailed integrity management 
program that we apply to all of our pipelines. And this is just 
another one that is in that program. Certainly, the first step, 
as was mentioned earlier today, is that we are required to do a 
risk assessment on all of our pipelines to make sure that we 
understand what potential risks are there.
    This particular line had an in-line inspection in 2009. And 
again as was mentioned earlier, that did not uncover any issues 
from an integrity standpoint.
    Senator Vitter. I don't want to cut you off, but I am 
really talking about specific to the high water and the 
flooding threat fairly near before the rupture. What did that 
provoke or not provoke on your part?
    Mr. Pruessing. We had taken the step in December, 2010 to 
do the depth-of-cover survey to confirm that we had adequate 
depth of cover in the river. Again, as was mentioned earlier, 
we have been working with the city of Laurel really over 
several months as they raised concerns about erosion of the 
south bank.
    The south bank by itself had a lot of depth of cover and we 
confirmed that with this same depth-of-cover survey. That was 
about 12 feet. But we did confirm the depth of cover under the 
riverbank.
    In addition, we actually shut down the pipeline for a day 
in May to step back and do a further risk assessment to look at 
all the data PHMSA had and that we had to identify if there 
were any issues that could cause us additional concern. This is 
a process that we would normally do when we have river 
flooding.
    I will just give you an example. Obviously, you are from 
the State of Louisiana. We have had to respond to the issues 
with Mississippi flooding this year. When they were talking 
about opening the Morganza Spillway for the first time since 
1973, we identified several pipelines we have that cross the 
Atchafalaya River. The last time that Morganza Spillway was 
open, we had some issues with our pipelines in 1973.
    So we did a risk assessment. We decided that it was too 
great a risk based on history and based on the details of those 
lines. We actually shut those lines down and filled them with 
water before the Morganza Spillway was opened.
    We were fortunate that those pipes were not damaged at the 
time, even when the additional water was flowing in the 
Atchafalaya. And we later worked with PHMSA to put those back 
in service. But we used that same kind of process here on the 
Yellowstone crossing. We looked at the risks. We looked at all 
the details on pipeline integrity. We looked at the depth of 
cover. We looked from a broad perspective, did we feel like we 
had any risks even with the high water. At that time, we 
concluded that we had a safe pipeline and so we put it back in 
service.
    Obviously, something happened here that we do not yet 
understand, something very unusual. And we are very anxious to 
complete our investigation as well so that we can learn from 
that.
    Senator Vitter. Mr. Chairman, if I could just ask one more 
question.
    Senator Baucus. Absolutely.
    Senator Vitter. Thank you for your courtesy.
    We have heard about EPA testing air and water. Is Exxon 
conducting any independent testing? Is anyone else conducting 
completely separate independent testing, NIH, CDC, anybody like 
that?
    Mr. Pruessing. Right after the incident occurred and we had 
identified where it had occurred, we started doing industrial 
hygiene testing of the air. That was in place within just 
several hours of the time that we knew we had an issue to deal 
with. Fortunately, that also did not show any particular issues 
from an air standpoint, but we did put that in place right 
away.
    Once the Unified Command was in place, we have tried to 
work our activities through the Unified Command so that we have 
full alignment with the EPA and the Montana DEQ.
    Senator Vitter. OK.
    Thank you, Mr. Chairman.
    Senator Baucus. Thank you.
    Senator Lautenberg, we would like to hear from you.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman. I ask consent 
that my full opening statement be entered in the record.
    Senator Baucus. Without objection.
    [The prepared statement of Senator Lautenberg was not 
received at time of print.]
    Senator Lautenberg. Mr. Pruessing, I want to ask you, how 
many times has PHMSA come to Exxon and asked about problems 
with the Silvertip pipeline?
    Mr. Pruessing. PHMSA does regular audits and inspections of 
all of our integrity program. They actually did a very detailed 
assessment of this particular Silvertip line in June of this 
year.
    Senator Lautenberg. Had you been notified of any problems 
that they saw? Let's talk about a period from 2002 to 2003 on.
    Mr. Pruessing. The last time that we did an actual in-line 
inspection was in 2009. After that inspection was completed, 
PHMSA looked at those records and they identified four or five 
things that they wanted us to respond to. They were not 
particularly integrity issues on the pipeline, but they were 
items that they identified that we needed to improve. That 
included removing some vegetation near a portion of the 
pipeline; adding some paint on a portion that was above ground; 
doing some additional walking patrols on the pipeline and not 
just aerial patrols; actually correcting some small packing 
leaks on the top of some valve bonnets.
    But those were things that all were responded to and at the 
time that this incident occurred, we did not have any 
outstanding issues from a regulatory standpoint on this 
pipeline.
    Senator Lautenberg. Well, I have a list of criticism and 
complaints that PHMSA talked to ExxonMobil about going back to 
January 30 , 2003: proposed compliance order; notice of 
amendment; February 18, 2005, probable violation; compliance 
order; proposed civil penalty and notice of amendment.
    The list goes on. There are nine of those, and that doesn't 
sound like it is very insignificant or relatively minor things 
to me. I am sure you are aware of these. Would you say they are 
minor?
    Mr. Pruessing. Senator, any time that an item is identified 
by the regulatory agency, we need to respond to it quickly. 
Again, the normal process that the regulatory agency uses to 
notify the operator of issues they need to respond to are the 
type of items you talked about, notice of probable violation or 
those type of documents that are sent to us. It is the 
mechanism by which they inform us to go respond.
    Senator Lautenberg. Well, let's look as recently as June 
8th in 2010. A warning letter was sent based on a 2009 standard 
inspection. The issues were raised. The breakout tank mixer was 
leaking and in poor working condition and the tank was operated 
by ExxonMobil's refinery. On June 8th, also 2010, based on 
2009, inadequate procedures for breakout tank maintenance and 
operator corrected its procedures. The case was closed.
    But it seems to me that there is a frequency of issues that 
question whether ExxonMobil here is doing what they have to 
protect the safety and the well being. I mean, this accident 
here didn't come without having had several warnings about 
conditions on the pipeline.
    Now, has ExxonMobil responded to these and gotten an 
approval from PHMSA that says, OK, these things were taken care 
of?
    Mr. Pruessing. Yes, Senator. Actually by the time we 
received that warning letter, all of those items had already 
been taken care of.
    Senator Lautenberg. So it was just a coincidence that these 
things happen and here was this breakout that it did the kind 
of damage that it did. It doesn't sound very efficient to me. 
There seem to be a series of things that needed attention, and 
why they had to be called to the attention of a company like 
ExxonMobil to avoid problems here. It looks like these things 
were leading up to the problem that ultimately resulted in this 
terrible accident.
    Mr. Pruessing. Well, we certainly take our responsibilities 
very seriously.
    Senator Lautenberg. Well, it doesn't suggest it, the list 
of these.
    Mr. Chairman, I would like to put this list on the record.
    Senator Baucus. Without objection.
    Senator Lautenberg. Thanks very much, Mr. Chairman.
    [The referenced information follows:]
    Senator Baucus. I thank the Senator.
    I just have a couple of questions, speaking to Mr. 
Pruessing.
    You mentioned a pressure drop noted in Houston. I am just 
curious how all this works. Is there a control room and people 
look at dials?
    Mr. Pruessing. Yes, there is a control room about the size 
of this room; a number of computer screens where they bring in 
information from our pipelines across the Country. Some of that 
information comes in on telephone line. Some of it is sent 
through satellites. But they are able to monitor all of our 
pipelines, valve positions, pump conditions.
    Senator Baucus. In this case, I am just curious, is there 
somebody watching the gauge go down? Or is there a computer 
program that is programmed so that if there is a certain 
percent drop in pressure a bell goes on, a light flashes? I am 
just curious what happens here.
    Mr. Pruessing. All of those are accurate. We have people 
sitting watching the screens. We have a number of alarms that 
have already been identified and pre-set that would give an 
operator indication if something unusual were happening. So all 
of those are accurate.
    Senator Baucus. Do you know what happened in this case?
    Mr. Pruessing. In this particular case, they did get an 
alarm for the drop in pressure. They immediately called in 
their supervisors who tried to look at it and see if they could 
understand what was happening. And when they couldn't figure 
out exactly what had occurred, they decided to take the step to 
shut down the pumps.
    Senator Baucus. How many sensors are there on this line 
between Houston and Laurel?
    Mr. Pruessing. I don't know the specific number of sensors. 
I would certainly be glad to get back to you with that specific 
number. But we have a number of different pressure and flow 
meters along lines to be able to monitor a pipeline. I will 
have to get back to you on the specifics on this line.
    Senator Baucus. If you would. I am curious. Some timeline I 
saw a block valve was shut and then reopened for may 10, 15 
minutes, something like that. What was that all about?
    Mr. Pruessing. That is accurate. Well actually, again when 
we did not know exactly what was occurring, but we looked at 
what had happened and where the pressure drop occurred, the 
operators determined that since the line slopes down into one 
of our delivery points at one of the local refineries, that 
reopening that valve would drain oil away from that segment of 
the oil and have it delivered into the customer.
    So that was done from a safety perspective to say let's get 
the oil away from portions of the line where we may have an 
issue until we determine it. So it was reopened consciously to 
try to get the oil to drain by gravity into the delivery point. 
It was later re-closed to make sure that we had fully isolated 
the line.
    Senator Baucus. Where is that block valve, the one in 
question?
    Mr. Pruessing. That particular valve is north of the 
Yellowstone River, downstream of where the event occurred.
    Senator Baucus. So that was reopened in order to get oil 
flowing down hill?
    Mr. Pruessing. Yes. And I would also add that at the river 
crossing, there is actually a check valve which allows flow 
only to go one way, so there was already a restriction there to 
prevent oil from flowing back. But again, it is a down hill 
slope, so reopening that valve would just allow the oil to 
drain into the delivery point.
    Senator Baucus. I find it a little concerning that it took 
somebody not working for the company to tell you that you had a 
leak. That is the Laurel folks who notified you first with a 
telephone call, rather than the company itself with its sensors 
and gauges and computer program figuring it out.
    Mr. Pruessing. That is certainly something that the 
industry continues to work on, trying to develop new technology 
on how to monitor varied lines and make sure that we have the 
right sensors to be able to pinpoint when there is an issue.
    Senator Baucus. And ExxonMobil is committed to fully 
cleaning up?
    Mr. Pruessing. Absolutely.
    Senator Baucus. How much has the company budgeted for the 
cleanup?
    Mr. Pruessing. Right now, we are not worried about budgets. 
We are worried about putting the resources on getting the spill 
cleaned up.
    Senator Baucus. So you are just going to get it done 
irrespective of the cost?
    Mr. Pruessing. That is correct.
    Senator Baucus. A lot of landowners are a little concerned, 
as is Mr. McBurney about his property values on down the road. 
There is a lot of cleanup here. I commend EPA and I commend 
ExxonMobil for all that work.
    But to be honest about it, it is Mr. McBurney and other 
landowners who are a little concerned about what is going to be 
the value of the land. Will there be waste from the oil 
residue, something left 5 years from now, 10 years from now, 15 
years from now? Montanans want to know that, that it is going 
to be in good shape. So can I ask you, next year or the year 
after or even 5 years from now, when landowners show that their 
property is damaged, would you commit to me today to make them 
whole?
    Mr. Pruessing. Well, first of all, Mr. McBurney, let me 
just apologize to you personally for the troubles that we have 
caused and we are committed to stand behind the complete 
cleanup.
    As far as longer-term sampling, we want to work with EPA 
and Montana DEQ and other officials to make sure that we have 
an agreed plan and what that is. And we have not set a specific 
plan and what that sampling will be. We will work with all the 
applicable agencies to make sure that is put in place so that 
we do not have the concerns.
    Senator Baucus. You didn't really answer my question. My 
question was, will you commit to me today to make them whole, 
when several years from now they can show that their land has 
been damaged?
    Mr. Pruessing. We certainly will pay all legitimate claims.
    Senator Baucus. Including drops in land values?
    Mr. Pruessing. I will certainly ask our people who handle 
those kinds of claims to get involved in that, but certainly we 
now have over 40 people on the ground up there to respond to 
all of the concerns of the people in the community, and we want 
to work those all individually. We don't have any set formula 
for anything. We want to work with the individual landowners 
and make sure that we address all of the issues that we have 
caused.
    Senator Baucus. It sounds like you are kind of pulling your 
punches a little bit. On the one hand, Exxon says it is going 
to make everybody whole. On the other hand, if there is still 
damage five or 6 years from now that can be demonstrated 
because of the oil spill, you are not saying you are going to 
compensate that landowner.
    Mr. Pruessing. No, again we will stand behind honoring all 
legitimate claims.
    Senator Baucus. So if Mr. McBurney, for example, five, 6 
years from now has something in his file that shows that there 
is still damage on his land because of the oil spill, and he 
tries to sell it and the sale price is 30 percent below what it 
otherwise would be, you will make up that 30 percent?
    Mr. Pruessing. Well, that is why it is really important 
that we work with the applicable agencies to make sure we do 
the necessary soil testing now so that we can determine if 
there is any issue with regard to the land. So we certainly 
want to work very closely with all the agencies to make sure 
that proper testing is done now.
    Senator Baucus. I understand. But if it can be shown that 
there is still damage that has reduced land value, do you 
commit to making him whole?
    Mr. Pruessing. Yes. If there is a legitimate claim that is 
tied to the oil spill, then we certainly will honor that.
    Senator Baucus. OK. Thank you.
    Just a couple of questions about trenching versus drilling. 
I understand that just to be safe that Exxon is going to 
replace the current line with a drilled line. Is that correct?
    Mr. Pruessing. That is correct. That has been the 
recommendation of PHMSA and we certainly agree with that. We 
had actually independently come to that conclusion that would 
be the necessary technology to replace it.
    The technology of directional drilling really became 
prominent in the mid-1990's. Prior to that, especially when you 
have underwater areas where pipelines are buried, it was normal 
to ditch that and have it be covered over with just the 
riverbed. But today, using directional drill technologies is 
more commonplace, particularly in river crossings.
    Senator Baucus. What about the rest of the rivers in 
Montana? Some are trenched, I think.
    Mr. Pruessing. We are in the process now of doing a risk 
assessment on all of the river crossings on the Silvertip, 
consistent with the order we received from PHMSA. Part of that 
process started this week. We actually brought in a boat with 
side-scan sonar technology instrumentation. We have done an 
initial sounding in the Billings crossing, which is not where 
the incident occurred, but where it crosses back across the 
river to get to the ExxonMobil refinery.
    The initial data did not indicate any exposed pipe, but we 
will be working with PHMSA and EPA and Montana DEQ on the 
specific procedures to do that in greater depth so that we 
actually know where the lines are located in that crossing. So 
that is something that we need to do and certainly agree to 
make sure that the river crossings are safe on the rest of this 
line.
    Senator Baucus. I appreciate that.
    Mr. McBurney, I heard you say you are a little concerned 
about testing a little bit, like the EPA folks came out and 
really had a limited sampling, if I heard you correctly. 
Although I hear some think EPA is doing a pretty decent job, as 
is Exxon doing a pretty decent job. But just sometimes the 
devil is in the details.
    If you could just again expand upon some of the cleanup 
that you have experienced and how widespread it is and should 
it be better, from your perspective.
    Mr. McBurney. Well, first let me say it is an evolving 
process. Most of my concerns are down the road a year from now 
when this is over, 2 years, 3 years. Next year, am I going to 
have hay? What is it going to look like?
    As far as my place in particular, tomorrow I have a meeting 
with a soil expert in Billings is going to come out to my house 
and a representative of Exxon is going to be there. And we are 
going to talk and see if Crawford Insurance Company will pay to 
have this guy do some testing so I can have that. You know, a 
site-specific analysis of my property is what I feel like I 
need, and more than one sample of the soil under my pasture.
    The oil impacted my pasture progressively. The more river 
water came in, the more oil I had. So I felt like I needed 
multiple tests on my soil. And the other thing is I had ponding 
of water with oil in it, and that is different. It is a 
different impact, I am afraid, than just the oil rushing over 
the surface of the ground and then flushing on down the river.
    I had a pond of water on my property. The oil came in and 
stayed and the water evaporated. So I am a little concerned 
about that.
    But I do think EPA is on the job. I heard a rumor that they 
were going to do more thorough soil analysis on selected 
parcels, but I am not in the loop, so to speak on a lot of 
that.
    Senator Baucus. OK. But to feel better assured, what would 
you like to know and who would you like to give that 
information? Is it EPA? Is it the county? Is it Exxon?
    Mr. McBurney. I would like somebody to know. Like I said in 
my testimony, we went to a meeting last week, a week ago today, 
and there wasn't really anybody there that crossed that 
agricultural versus scientific oil boundary. There was kind of 
a gap there. And I am hoping that I can hire his guy and that 
is his region of expertise, and that I can have at least for 
myself, I can have those issues resolved.
    I am not convinced that my property is irreparably damaged. 
I really don't know. I don't know how much oil is on my 
property. It is an unknown. It is a source of worry for me.
    Senator Baucus. Right. So let me ask Mr. Pruessing, what is 
the best way to help Mr. McBurney out here? He is concerned 
about oil as it mixes with hay land and so forth, ag and oil 
and so forth. How can we help him out?
    Mr. Pruessing. Yes, this is a very good example of what I 
spoke about earlier, about wanting to work with each individual 
landowner individually because their concerns may be different 
or their issues may be different.
    If we need to get additional expertise out there that meets 
this bridge between science and agriculture, then we will find 
that kind of resource to help address these issues.
    Senator Baucus. Mr. Kennedy, any thoughts on that one?
    Mr. Kennedy. Senator, this is a perfect example of every 
individual landowner that has been affected. When we say make 
them whole, this plan should incorporate a piece so it is 
individualized for each one of them that we address their 
issues, be it 10 acres, be it 20 acres, be it 160 acres that 
are long the river. And I think we can do that.
    The No. 1 area that you are talking about is between our 
extension agent and some other experts, we should be able to 
get a standard and know what may happen over the next five, 6 
years and see what those samplings are.
    Our biggest problem is the samplings have taken so long to 
get the results back. And with that, we are not quite sure the 
samplings have been taken and we haven't had the results back.
    Senator Baucus. Why does it take so long? Do they have to 
be sent someplace or do we need more resources to sample? Why 
does it take so long?
    Mr. Kennedy. I can't answer that question. EPA has said 
they have taken the sampling and have not gotten the results 
back. That was our biggest frustration for the first four or 5 
days is how come it is taking so long if this is an emergency 
situation. Can't we get at least some results back right away 
for the public?
    And I think that is where Scott is, is knowing that after 
he has certain areas of his property that he wants sampled, and 
knowing what is there and then possibly monitoring it in 1 year 
and 2 years from now to check and see. And what those levels 
are. And I guess with the county, we would like to know what 
those levels are and see what the standards are so we can 
actually go back and say these are the standards that have been 
set up.
    Senator Baucus. OK, we all want to help each other out 
here. So what can I do to help any of you three, landowners 
especially? We are here to serve the landowners, so any 
thoughts on what can I do to help move this along?
    Mr. Kennedy. Senator, I would say No. 1 is the cooperation 
of the agencies working together. And by you insisting on the 
agencies working together and expedite some of these results so 
we can get the plan and then working with the landowners.
    No. 2 would be the pipeline is going to have to go through 
and being able to get that pipeline drilled and so it is safe 
and get oil back into the refinery is another issue that we 
have in our community. There are 280 employees there.
    No. 3 is that what we need to do is all of us make sure 
that our landowners, the people that live in our county that 
have been affected, are satisfied with the results that are 
coming forward. And I think as we go forward on that, just your 
involvement with this brings a lot of credibility as we work 
with these Federal agencies.
    Senator Baucus. I appreciate that.
    Mr. Pruessing, do you need any help with PHMSA or anybody? 
EPA or anybody?
    Mr. Pruessing. No, they have actually been, EPA and PHMSA 
have both been very professional in working with us, providing 
us direction, and helping us work through these problems.
    Senator Baucus. Mr. McBurney?
    Mr. McBurney. Well, I would like to echo Bill's sentiment 
on getting the pipe going again. A lot of my friends work at 
ExxonMobil and I know a lot of contractors that do work there 
as well. So it is important to the community.
    I appreciate you letting me come and be here. You have done 
something already.
    Senator Baucus. I hope to. It is a goal.
    Mr. McBurney. Yes. Like I said, it is important to me to 
have a report about my property. And as a landowner, I would 
think that other landowners would want the same thing. I really 
don't know if that is true, but that is kind of what I would 
like to have in my back pocket is a site-specific report 
detailing the impact, what was done, conclusions, that kind of 
thing. If I could show somebody or tell somebody like a hay 
customer asking, you know, is this hay going to have oil in it? 
Or if I go to sell my place a couple years from now and 
somebody I would have to disclose it to him that I have that 
issue.
    Senator Baucus. Have you asked for that?
    Mr. McBurney. From Exxon?
    Senator Baucus. From anybody, Exxon or EPA?
    Mr. McBurney. No. Well, I asked for soil sampling. But as I 
said, I think EPA is going to get to it. I don't know whether 
it is going to be site-specific like I want.
    Senator Baucus. It is a good idea. I think some site-
specific assessment of each person's land for the reasons you 
indicate makes good sense. And let's push for that.
    Before we finish up, I should have done this earlier, hold 
up some photographs of the flooding. Here is one. I suppose 
that is just below Laurel. Yes? You can see the oil there, 
black, the Yellowstone River. It was high.
    OK, next? Here are some folks doing the cleanup. It is 
laborious work, but they are out there working at it.
    OK. Here is another photograph of the oil, with the river 
off to the side.
    OK. Here is another you can see the oil caught from the 
sides in the trees and so forth, and how high the water is. You 
may recognize the land here, Scott, and know who that is. I 
don't know whose property that is, but it is up there. You 
mentioned within an inch of your house. This reminds me of 
that.
    Of course, here is another oil spot on the side.
    The river is moving along pretty quick and high, so it 
pushed, as you know, the oil up on the side because it was so 
high.
    OK. I want to just remind everybody that anybody who wants 
to submit additional testimony, the record will be open for 2 
weeks. And I say that especially for people from Montana who 
may want to submit additional testimony. The record will be 
open for two more weeks.
    So this won't be the last of it. We will be following up.
    Thank you very much, everybody.
    The hearing is adjourned.
    [Whereupon, at 12:03 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows.]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Chairman Baucus, thank you for holding today's hearing. The 
Yellowstone River is truly one of America's great treasures and 
we all share your concern with the recent spill. In addition, 
we all owe a debt of gratitude to the work crews from EPA, 
Coast Guard, U.S. Fish and Wildlife Service, Montana State and 
local agencies, and others who for the past 2 weeks have worked 
long hours to protect health and wildlife in the affected area.

    As Congress examines this incident the most important order 
of business should focus on three priorities:
     Mitigate and contain the environmental impacts;
     Provide assistance to those affected; and
     Investigate the causes so we can prevent a mishap of this 
kind from happening again.

    And I would add this: let's avoid overreacting. Now this 
incident is serious--perhaps 750 to 1,000 barrels of oil were 
spilled into the river. But, unfortunately, I'm afraid that 
this spill has occasioned some misguided calls against 
pipelines and oil development. Already, some politicians have 
leveraged this spill in opposition to the expansion of the 
Keystone pipeline which would double the amount of crude we 
receive from Canada, reducing our imports from overseas.
    Instead, let's look to the common sense testimony of one of 
today's witnesses, Scott McBurney, a local landowner adjacent 
to the spill on the Yellowstone. He said, ``I need oil, it's 
just a fact of life, there's no such thing as a plug-in 
tractor. This country needs oil. More than that, we need the 
jobs the oil industry brings to Eastern Montana. The 
Yellowstone Valley is a better place because the Exxon/Mobil 
refinery is here. I know a lot of people would take exception 
to this opinion, but I believe it.''
    Mr. Chairman, he's right. This country needs oil. It's 
important that our response to this tragedy be measured, and it 
be based on facts. Let's avoid getting sidetracked by other 
issues like the Keystone pipeline that will needlessly 
complicate efforts to address the current spill. I'm looking 
forward to hearing from all our witnesses today.

                                 [all]
</pre></body></html>
